App. 1a
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
TIMOTHY P. DEMARTINI,
MARGIE DEMARTINI,
Plaintiffs-Appellees,
v.
MICHAEL DEMARTINI,
RENATE DEMARTINI,
Defendants-Appellants.

Nos. 17-16400
18-15882
D.C. No.
2:14-cv-02722JAM-CKD
Eastern District of
California,
Sacramento
ORDER
December 23, 2020

Before: O’SCANNLAIN and PAEZ, Circuit Judges,
and SIMON,*1District Judge.
The memorandum disposition filed in this case on
July 6, 2020 is hereby amended. An amended
memorandum disposition is filed concurrently with
this order. With this amendment, the panel has voted
unanimously to deny the petition for panel rehearing
with respect to the July 6, 2020 memorandum
disposition.
In addition, the panel has voted to deny the
petition for panel rehearing and petition for rehearing
en banc with respect to the panel’s July 6, 2020
opinion. The panel has voted unanimously to deny the

* The Honorable Michael H. Simon, United States District
Judge for the District of Oregon, sitting by designation.

App. 2a
petition for panel rehearing. Judge Paez has voted to
deny the petition for rehearing en banc, and Judge
O’Scannlain and Judge Simon have so recommended.
The full court has been advised of the petition for
rehearing en banc, and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petitions for panel rehearing and the petition
for rehearing en banc are DENIED. No subsequent
petitions for rehearing or rehearing en banc may be
filed.

App. 3a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
TIMOTHY P. DEMARTINI;
MARGIE DEMARTINI,

Nos. 17-16400
18-15882

Plaintiffs-Appellees,
v.
MICHAEL J. DEMARTINI;
RENATE DEMARTINI,

D.C. No.
2:14-cv-02722JAM-CKD
OPINION

Defendants-Appellants.
Appeal from the United States District Court
for the Eastern District of California
John A. Mendez, District Judge, Presiding
Argued and Submitted December 11, 2019
Pasadena, California
Filed July 6, 2020
Before: Diarmuid F. O’Scannlain and Richard A.
Paez, Circuit Judges, and Michael H.
Simon,*2District Judge
Opinion by Judge O’Scannlain

* The Honorable Michael H. Simon, United States District
Judge for the District of Oregon, sitting by designation.

App. 4a
COUNSEL
Kathryn M. Davis (argued), Law Office of Kathryn M.
Davis, Pasadena, California, for DefendantsAppellants.
David B. Dimitruk (argued), Law Offices of David B.
Dimitruk, Tustin, California, for Plaintiffs-Appellees
OPINION
O’SCANNLAIN, Circuit Judge:
This case originated in state court, was removed
to federal court, and subsequently was remanded
back to state court. We are called upon to decide
whether we have jurisdiction, nevertheless, to review
the district court remand order that also amended the
complaint to add a diversity-destroying defendant
and severed the affected claim for disposition in state
court.
I
A
Timothy and Michael DeMartini are brothers
who, along with their wives, co-own adjacent
commercial properties in Grass Valley, California.
The first parcel, 12731 Loma Rica Drive (“the 12731
parcel”), is held by DeMartini & Sons, an oral
partnership formed in the late 1970s by Timothy,

App. 5a
Michael, and their father, James Paul DeMartini. The
nature of the brothers’ joint ownership of the second
parcel, 12759 Loma Rica Drive (“the 12759 parcel”), is
contested. Michael and his wife Renate DeMartini
claim that the parcel is also held by a partnership, but
Timothy and his wife Margie DeMartini claim that
the parcel is held by the couples as tenants in
common.
Seeking to fund further development of the 12759
parcel, Timothy, Margie, Michael, and Renate took
out a $250,000 loan from Westamerica Bank in 1998.
When the loan came due in 2014, Michael and Renate
wanted to extend the due date but Timothy and
Margie did not. After a short extension, Timothy and
Margie unilaterally paid the loan’s $137,212.51
outstanding balance. Claiming that the couples had
an agreement to share the burden of the loan fiftyfifty, Timothy and Margie demanded that Michael
and Renate pay their share. Michael and Renate
refused, asserting that the 12759 parcel was held by
a partnership and that Timothy and Margie’s
unilateral
action breached the
partnership
agreement. Michael and Renate also claimed that
Timothy and Margie had closed a partnership bank
account and diverted income from the 12759 parcel to
their personal account. Hence, in Michael and
Renate’s view, Timothy and Margie were required to
apply the diverted accrued income from the 12759
parcel to the outstanding debt before asking Michael
and Renate to cover half of the remainder.

App. 6a
B
Timothy and Margie DeMartini filed this lawsuit
against Michael and Renate in California Superior
Court on September 15, 2014. Michael and Renate
promptly removed the case to federal district court,
citing diversity jurisdiction. See 28 U.S.C. §§ 1332,
1441(a). The parties are completely diverse. Timothy
and Margie are citizens of California, which is also
where the Loma Rica Drive parcels are located, while
Michael and Renate are citizens of Nevada.
A year after this case was filed and removed, the
district court granted Timothy and Margie leave to
amend their original complaint. Timothy and Margie
now assert three claims for relief: (1) dissolution of the
partnership that owns the 12731 parcel, (2) partition
of the 12759 parcel, which they alleged was owned by
the couples as tenants in common rather than as
partners, and (3) damages for Michael and Renate’s
alleged breach of the contract to share half the
obligation of the Westamerica loan. In response,
Michael and Renate amended their answer and
counterclaim, asserting several affirmative defenses
and seeking declaratory relief and damages.
C
The case proceeded to discovery. In late 2016,
Timothy and Margie received a litigation guarantee
report for the 12731 parcel that showed that the
property was held by a partnership consisting of three
titled partners: Timothy, Michael, and their deceased
father, James Paul DeMartini. This revelation

App. 7a
contradicted the first amended and then-operative
complaint, which had alleged that Timothy and
Michael had succeeded to their father’s one-third
share of the partnership assets. After further
research, Timothy and Margie’s attorneys determined
that the James Paul DeMartini testamentary trust
retained an interest in the partnership. On February
17, 2017—less than a week before the discovery cutoff—Timothy and Margie moved further to amend
their complaint to join the trustees of their father’s
estate as defendants to the partnership dissolution
claim. One such trustee is Michael and Timothy’s
brother, James C. DeMartini, a citizen of Colorado
and, thus, not a threat to the district court’s diversity
jurisdiction. The other trustee, however, is Timothy.
Adding him as a defendant not only causes a curious
scenario in which Timothy in his individual capacity
is potentially adverse to himself in his capacity as
trustee; it also destroys the previously complete
diversity of the parties.
The district court concluded that, due to the
trust’s interest in the 12731 parcel, it could not “in
equity and good conscience” allow the partnership
dissolution claim to proceed without joining the
trustees as parties, thus destroying diversity. The
other claims could proceed without joinder. Neither
party claimed the trustees had an interest in the
adjacent 12759 parcel, which was the subject of
Timothy and Margie’s partition action. Nor did they
claim the trust to be a party to the alleged contract
that formed the basis of Timothy and Margie’s breach
of contract claim or to the alleged broader partnership

App. 8a
that formed the basis of Michael and Renate’s
counterclaims.
Rather than dismiss the action or remand the
entire case upon the joinder of the trustees, the
district court decided on a third option. Noting that
the case had been “vigorously litigated” and “a
significant amount of judicial resources [had] been
invested” during the two years before Timothy and
Margie’s attorneys received the litigation guarantee
report, the district court determined that the “means
best suited to accommodate the interests of all
parties, and proposed parties,” would be to sever the
partnership dissolution claim from the rest of the case
and to remand only that claim for resolution in state
court.
Accordingly, in a single decree, the district court
granted the motion to amend to add the trustees,
severed the partnership dissolution claim, and
remanded that claim to California Superior Court.
D
Michael and Renate appeal the order amending,
severing, and remanding the partnership dissolution
claim (“the Order”) (No. 17-16400). On its own, of
course, such an order is not immediately appealable
as either a final decision within the meaning of 28
U.S.C. § 1291 or under the collateral order exception.
Stevens v. Brink’s Home Sec., Inc., 378 F.3d 944, 947–
48 (9th Cir. 2004).

App. 9a
However, after the summary judgment on all
three counterclaims had been entered and a jury
verdict on the breach of contract claim rendered, the
district court directed entry of a Rule 54(b) partial
final judgment. Michael and Renate now also appeal
from that judgment and from the denial of their posttrial motion for judgment as a matter of law or a new
trial (No. 18-15882). This court then consolidated the
appeal from the Order (No. 17-16400) with the
subsequent appeal from the Rule 54(b) judgment and
denial of the post-trial motion (No. 18-15882).
Before us, then, is the district court’s order
amending the complaint to add the trustees, severing
the dissolution claim, and remanding it to state court.
We address Michael and Renate’s appeal from the
entry of judgment on their three counterclaims and on
Timothy and Margie’s breach of contract claim in a
memorandum disposition filed concurrently with this
opinion. See DeMartini v. DeMartini, Nos. 17-16400
& 18-15882, —F. App’x —(9th Cir. 2020).
II
The parties dispute whether we have jurisdiction
to review the Order. Timothy and Margie assert that
28 U.S.C. § 1447(d) bars our review of the Order,
while Michael and Renate contend that we have
jurisdiction over it in its entirety.
A
Section 1447(d) states that “[a]n order remanding
a case to the State court from which it was removed is

App. 10a
not reviewable on appeal or otherwise,” with certain
defined exceptions not relevant here. 28 U.S.C. §
1447(d).
In addition, § 1447, which governs procedure
after removal, provides two separate authorizations
for a district court’s remand of a removed case. First,
§ 1447(c) stipulates that:
A motion to remand the case on the
basis of any defect other than lack of
subject matter jurisdiction must be
made within 30 days after the filing of
the notice of removal . . . . If at any time
before final judgment it appears that
the district court lacks subject matter
jurisdiction, the case shall be
remanded.

Id. § 1447(c). In other words, the district court may
remand to state court only upon timely motion,
unless there appears to be a defect in subject-matter
jurisdiction, in which case the court must remand no
matter the stage of the proceedings.
Second, § 1447(e) provides:
If after removal the plaintiff seeks to
join additional defendants whose
joinder would destroy subject matter
jurisdiction, the court may deny
joinder, or permit joinder and remand
the action to the State court.

App. 11a

Id. § 1447(e). Section 1447(e) addresses a lacuna in
Federal Rule of Civil Procedure 19. When the joinder
of a required party is not feasible because it would
deprive the district court of subject-matter
jurisdiction, Rule 19 directs the court to “determine
whether, in equity and good conscience, the action
should proceed among the existing parties or should
be dismissed.” Fed. R. Civ. P. 19(b). Section 1447(e)
allows a third option: remand back to state court. See
Yniques v. Cabral, 985 F.2d 1031, 1034 (9th Cir.
1993) (“Section 1447(e) engineers a ‘departure’ from
the analysis required by Fed. R. Civ. P. 19 in that it
allows the joinder of a necessary non-diverse party
and a subsequent remand to state court.”).
This appeal concerns a remand order citing §
1447(e) as its basis. After concluding that, “in equity
and good conscience,” it could not allow the action to
proceed without the trustees, the district court
acknowledged that Rule 19 would ordinarily require
it to dismiss the action. However, because the case
had been removed from state court, the district court
determined that § 1447(e) authorized the alternative
of remand, an alternative which it welcomed.
B
Michael and Renate offer several options by
which we could purportedly find an exception to §
1447(d)’s seeming prohibition on our review of the
Order.

App. 12a
1
First, Michael and Renate urge that § 1447(d)’s
limitation on the review of remand orders should be
construed to apply only to remand orders issued
pursuant to § 1447(c) and not, as here, § 1447(e).
Although the Supreme Court once held that § 1447(d)
must be read together with § 1447(c) such that “only
remand orders issued under § 1447(c) and invoking
the grounds specified therein . . . are immune from
review under § 1447(d),” Thermtron Prods., Inc. v.
Hermansdorfer, 423 U.S. 336, 346 (1976), Congress
has since amended the statute to broaden subsection
(c) and to add subsection (e), see H.R. 4807, 100th
Cong. § 1016 (1988). Accordingly, in Stevens, we
concluded that § 1447(d) deprives us of jurisdiction to
review remand orders that were issued pursuant to §
1447(e) and that invoke the grounds specified in that
subsection. 378 F.3d at 948–49.1 Every other circuit

1
In Stevens, our court decided that § 1447(d) is equally an
impediment to review of remands under § 1447(e) as it is to
review of remands under § 1447(c) without yet having had the
benefit of the Supreme Court’s discussion of the
interrelationship between these three subsections in Powerex
Corp. v. Reliant Energy Servs., Inc., 551 U.S. 224 (2007). The
discussion in Powerex provides another persuasive rationale for
our holding in Stevens. As the Supreme Court made clear,
Congress’s addition of § 1447(e) was part and parcel of its
broadening of the district court’s authority to remand under §
1447(c). See id. at 231–32. Before 1988, § 1447(c) mandated
remand to state court only for cases that had been improperly
removed to federal court—i.e., cases in which there was a defect
in subject-matter jurisdiction at the time of removal or in which

App. 13a
to consider the question agrees. See, e.g., Fontenot v.
Watson Pharm., Inc., 718 F.3d 518, 520–21 (5th Cir.
2013); Blackburn v. Oaktree Capital Mgmt., LLC,
511 F.3d 633, 636–37 (6th Cir. 2008); Alvarez v.
Uniroyal Tire Co., 508 F.3d 639, 641 (11th Cir. 2007);
In re Fla. Wire & Cable Co., 102 F.3d 866, 868–69
(7th Cir. 1996); Washington Suburban Sanitary
Comm’n v. CRS/Sirrine, Inc., 917 F.2d 834, 836 n.5
(4th Cir. 1990).
Michael and Renate assert that remands
pursuant to § 1447(e) are discretionary and therefore
reviewable, unlike remands pursuant to § 1447(c),
which they say are mandatory and therefore
unreviewable. Such argument confuses the nature of
the district court’s discretion under § 1447(e), and we
rejected it in Stevens. 378 F.3d at 948–49.

the removal was procedurally improper. See id. at 231;
Thermtron, 423 U.S. at 342. When § 1447(c) was broadened to
authorize remands for cases with apparent defects in subjectmatter jurisdiction even if the cases were properly removed, §
1447(e) was added to extend such a rule expressly to the
circumstance of required, diversity-destroying joinder. In the
absence of § 1447(e), an arguably incoherent rule would govern.
Namely: a case removed under federal diversity jurisdiction in
which an indispensable party appeared to be nondiverse must be
remanded, unless that indispensable party had yet to be joined
as a party to the action, in which case the district court would be
required to dismiss the action under Rule 19, even late in the
course of litigation and after the statute of limitations had
expired. See Yniques, 985 F.2d at 1034–35; 14C Charles Alan
Wright & Arthur R. Miller, Federal Practice & Procedure §
3739.1 (Rev. 4th ed. 2020).

App. 14a
Section 1447(c) remands are mandatory because
once it appears that the district court lacks subjectmatter jurisdiction the court must remand. But those
under § 1447(e) are also mandatory because, once the
diversity-destroying defendant has been joined under
that subsection, the district court’s only option is to
remand. Likewise, if the district court does not join
the diversity-destroying defendant, § 1447(e) does
not authorize remand. As we explained in Stevens, it
is the joinder that is discretionary, not the remand.
Id. at 949.
Michael and Renate respond that Stevens is no
longer good law because it was sub silentio overruled
by the more recent case of Lively v. Wild Oats Mkts.,
Inc., 456 F.3d 933 (9th Cir. 2006). Lively was as much
bound by Stevens as we are bound by them both. See
Hart v. Massanari, 266 F.3d 1155, 1171 (9th Cir.
2001) (“[A] later three-judge panel considering a case
that is controlled by the rule announced in an earlier
panel’s opinion has no choice but to apply the earlieradopted rule; it may not any more disregard the
earlier panel’s opinion than it may disregard a ruling
of the Supreme Court.”).
We again conclude that, no matter whether the
district court issued the remand pursuant to § 1447(c)
or, as here, pursuant to § 1447(e), § 1447(d)’s bar
applies.
2
Second, Michael and Renate argue that § 1447(d)
does not apply to review of this Order because, in

App. 15a
their view, the district court’s conclusion that the
joinder destroyed the parties’ diversity was legal
error. Although the caption of Timothy and Margie’s
proposed amended complaint listed Timothy, in his
capacity as a trustee, as a defendant, Michael and
Renate contend that the motion to join him as a party
should have been read to add him as a plaintiff. They
also contend that the district court failed to consider
the full set of factors that govern the joinder of a
diversity-destroying party.
It would negate § 1447(d) to hold (as Michael and
Renate seem to propose) that a court may review the
merits of a remand order when that court suspects
any legal error. Nonetheless, appellate courts may
peek at the remand order as part of our “jurisdiction
to determine our own jurisdiction.” Lively, 456 F.3d
at 937 (quoting Special Invs., Inc. v. Aero Air, Inc.,
360 F.3d 989, 992 (9th Cir. 2004)). Accordingly, we
take note of the grounds upon which the district court
professes to base its remand. When the district court
characterizes its remand as “resting upon lack of
subject-matter jurisdiction”—as all § 1447(e)
remands must—the appellate court’s review, “to the
extent it is permissible at all, should be limited to
confirming that that characterization was colorable.”
Powerex, 551 U.S. at 234. Once the appellate court
determines that “the District Court relied upon a
ground that is colorably characterized as subject-

App. 16a
matter jurisdiction, appellate review is barred by §
1447(d).” Id.2
It would appear that Michael and Renate
conflate review of whether the grounds of the remand
order were colorably based on lack of subject-matter
jurisdiction, which is permitted, with review of
whether the remand was an acceptable exercise of
such authority, which is not. See, e.g., Lively, 456
F.3d at 938 (“[T]he question raised on appeal is not
whether the district court’s remand order was
correct, but whether the district court exceeded the
scope of its § 1447(c) authority by issuing the remand
order in the first place.”). As a result, Michael and
Renate rely on precedents in which this court
reviewed district court remand orders that were not
even ostensibly grounded in lack of subject-matter
jurisdiction. E.g., Smith v. Mylan, Inc., 761 F.3d
1042, 1044 (9th Cir. 2014) (untimely removal);
Harmston v. City & County of San Francisco, 627
F.3d 1273, 1277 (9th Cir. 2010) (discretionary refusal
of supplemental jurisdiction); Lively, 456 F.3d at 942
(forum defendant rule); Kelton Arms Condo. Owners
Ass’n, Inc. v. Homestead Ins. Co., 346 F.3d 1190,
1193 (9th Cir. 2003) (defect in removal procedure);
Garamendi v. Allstate Ins. Co., 47 F.3d 350, 352 (9th
Cir. 1995) (Burford abstention).
Powerex raises the possibility that § 1447(d) would
permit appellate review of a remand order that “dresses in
jurisdictional clothing a patently nonjurisdictional ground,” but
holds off on deciding whether such review is permissible.
Powerex, 551 U.S. at 234. We need not decide either, as it is not
alleged here that the district court’s concern for diversity
jurisdiction was a façade.
2

App. 17a
Here, the Order was premised on the concern
that the proposed joinder would “destroy diversity.”
There is no dispute here whether such grounds are
colorably jurisdictional or are simply procedural as
there was in, say, Lively. By definition, diversity
confers subject-matter jurisdiction and so the
addition of a diversity-destroying defendant would
“destroy subject matter jurisdiction” in this case. 28
U.S.C. § 1447(e).
Because the district court characterized the
remand as compelled by the grounds specified by §
1447(e), “review is unavailable no matter how plain
the legal error in ordering the remand.” Kircher v.
Putnam Funds Tr., 547 U.S. 633, 641–42 (2006)
(quotation marks omitted). The accusation of legal
error does not permit this court to sidestep the
command of § 1447(d).
3
Finally, Michael and Renate contend that §
1447(d) does not bar our review of this remand order
because the district court remanded a single claim to
state court, while § 1447(d) prevents the review of
orders “remanding a case.” 28 U.S.C. § 1447(d)
(emphasis added). Such an argument ignores that the
effect of the district court’s severance of the
dissolution claim from the other claims was to create
a separate case—a case that it then remanded. See
Herklotz v. Parkinson, 848 F.3d 894, 898 (9th Cir.
2017) (“When a claim is severed, it becomes an
entirely new and independent case” with “an
independent jurisdictional basis.”).

App. 18a
We therefore conclude that
prohibition applies to this appeal.

§

1447(d)’s

III
Section § 1447(d)’s bar on our review of the
remand does not end this case. Michael and Renate
also assert that the joinder that occasioned the
remand is separable from the remand. A reviewing
court, they remind us, may look behind the
unreviewable remand order and review the district
court’s antecedent determinations when such
determinations are separable from the remand order.
See Stevens, 378 F.3d at 946.
A
The separability doctrine originated in the
Supreme Court’s terse, cryptic, and nowcontroversial opinion in City of Waco v. United States
Fidelity & Guaranty Co., 293 U.S. 140 (1934).3 There,
an individual, filing in state court, sued the City of
Waco and its contractor for damages that he suffered
in a collision with a street obstruction. Id. at 141. The
City then brought a cross-complaint against the
United States Fidelity & Guaranty Company
(“USF&G”), an out-of-state surety. Id. USF&G
City of Waco preceded the enactment of § 1447(d) and
the Federal Rules of Civil Procedure, so the Supreme Court,
while continuing to apply and interpret the precedent, has
recently cast doubt on the “continued vitality” of the limited
appellate review it allows. Kircher, 547 U.S. at 645 n.13; see also
In re C & M Props., L.L.C., 563 F.3d 1156, 1164 (10th Cir. 2010)
(Gorsuch, J.).
3

App. 19a
removed the case to federal court, but, on motion from
the plaintiff, the federal district court dismissed the
cross-complaint and, finding the parties no longer
diverse, remanded the case to state court. Id. at 141–
42. The appellate court held that it did not have
jurisdiction over the order dismissing the cross-claim,
but the Supreme Court reversed. Id. at 142–43. The
Court held that the dismissal of the cross-claim was
reviewable because “in logic and in fact the decree of
dismissal preceded that of remand” and, “if not
reversed or set aside, is conclusive upon the
petitioner.” Id. at 143. Yet the Court took pains to
make clear that the review of the dismissal would not
be a back door through which the appellate court
could review the remand of the rest of the case. Id. at
143–44.
B
In dicta, our court has distilled City of Waco’s
criteria for a separable antecedent determination
into a two-step test. An antecedent determination is
separable from the remand order when it (1)
“preceded the remand order in logic and fact” and (2)
is “conclusive, i.e., functionally unreviewable in state
courts.” Stevens, 378 F.3d at 946 (quoting Dahiya v.
Talmidge Int’l, Ltd., 371 F.3d 207, 210 (5th Cir.
2004)). We have had very few occasions to employ and
to develop the separability doctrine, so City of Waco
remains the exemplar case of a separable order.

App. 20a
1
Let’s begin with step one: whether the
antecedent determination preceded the remand order
“in logic and fact.” Here the antecedent
determination is not a City of Waco-type dismissal of
all claims against the diverse party, but rather the
joinder of a diversity-destroying party.
While the joinder of the trustees undoubtedly
preceded the remand of the partnership dissolution
claim in logic, it is not clear whether the joinder
preceded the remand in fact. Recall that the remand
was ordered pursuant to § 1447(e). Under that
subsection, the district court has two options: either
deny joinder or join-and-remand. Section 1447(e)
does not permit separate consideration of joinder and
remand; they are one and the same.
We are not persuaded that City of Waco attached
such significance to its comment that “in logic and
fact the decree of dismissal preceded that of remand”
that we should read “logic” and “fact” as such
separate, demanding requirements. City of Waco,
293 U.S. at 143. Indeed, the district court in City of
Waco issued its dismissal and its remand in a “single
decree,” so even simultaneous orders in a single
decree may be separable. Id. at 142. The orders before
us were also issued simultaneously and in a single
decree. We see nothing about their sequence that
merits a different treatment than the orders in City
of Waco.
We therefore proceed to step two.

App. 21a
2
The district court’s joinder of the trustees clearly
fails to meet the second requirement: that the
antecedent order be “conclusive” on the issue it
decided. A “conclusive” antecedent order is one that
is “functionally unreviewable in state court.” Stevens,
378 F.3d at 946. Put another way, a separable order
“result[s] in substantive issues being later barred.”
Washington Suburban Sanitary Comm’n, 917 F.2d at
836 n.4. The order dismissing the cross-claim in City
of Waco illustrates the point. There the City could not
bring the same cross-claim in state court because the
district court’s dismissal had preclusive effect. City of
Waco, 293 U.S. at 143.4 The Court was therefore
concerned that the City’s cross-claim would be
extinguished simply because it fell into a limbo in
which
the
district
court’s
dismissal
was
simultaneously unreviewable in federal court and
preclusive in state court.
Here no such concern is warranted. No claims
will be functionally extinguished by our inability to
review the challenged amendment. Instead, the full
and ultimate effect of the amendment is that one of
the six claims pled in this case must now be resolved
in a state forum instead of a federal one. Unlike City
of Waco, the state court is not bound by the
challenged amendment. If the trustees should not
have been joined, the courts of the State of California
are free to dismiss them. See Kircher, 547 U.S. at 646

4

It would have no such effect today. See In re C & M

Props., 563 F.3d at 1165.

App. 22a
(“[W]hat a state court could do in the first place it
may also do on remand.”).
But Michael and Renate contend that the joinder
is unreviewable in state court because the state court
possesses “no power to reverse remand.” However,
the crucial “conclusive” result cannot be the remand
itself; otherwise it would contradict the very premise
of the separability doctrine, which is that some orders
have effects that render such orders separable from
the remand. Whether the joinder is conclusive
therefore cannot depend on whether the state court
may reverse the remand; it must depend on whether
the state court may reverse the joinder and dismiss
the trustees.
We conclude that, because the state court may
dismiss the trustees, the joinder in this case is not
conclusive and hence not reviewable.
3
Furthermore, we are reminded that City of Waco
“repeatedly cautioned that the remand order itself
could not be set aside” even when the antecedent
determination is reviewable. Powerex, 551 U.S. at
236. Accordingly, when we have found antecedent
determinations to be separable and reviewable, we do
so without disturbing the remand order. E.g.,
Sherwin v. Infinity Auto Ins. Co., 639 F. App’x. 466,
467 n.1 (9th Cir. 2016); Nebraska ex rel. Dep’t of Soc.
Servs. v. Bentson, 146 F.3d 676, 678 (9th Cir. 1998);
Levin Metals Corp. v. Parr-Richmond Terminal Co.,
799 F.2d 1312, 1315 (9th Cir. 1986). The observation

App. 23a
suggests a formula for differentiating separable
decisions from unreviewable ones. An antecedent
ruling that could be reversed without disturbing the
remand may, as in City of Waco, be separable.
However, if the ruling can only be reversed by first
undoing the remand, then it is not separable and we
may not review it. See Palmer v. City Nat’l Bank of
W. Va., 498 F.3d 236, 242–43 (4th Cir. 2007) (“A
district court decision that has a preclusive effect on
the parties and that is logically and factually
separable from the remand order is a decision that
can be reviewed by this Court without affecting the
remand order.”); accord Fontenot, 718 F.3d at 522.
Because the trustees are not parties to the case
currently in federal court, it is impossible to imagine
how we could revisit their joinder without sticking
our nose into state court proceedings. As a result,
Michael and Renate’s request to review the
amendment order ultimately “amounts to a request
for one of two impermissible outcomes: an advisory
opinion . . . or a reversal of the remand order.”
Powerex, 551 U.S. at 236. Neither outcome is within
our power; the joinder decision is unreviewable by
this court.5

Michael and Renate request judicial notice of state-court
filings in proceedings on the remanded claim. Such filings are
relevant only for evaluating the appropriateness of the joinder,
which this court may not review. See Cachil Dehe Band of
Wintun Indians of Colusa Indian Cmty. v. Zinke , 889 F.3d 584,
594 n.5 (9th Cir. 2018). Consequently, the motion to take judicial
notice is DENIED.
5

App. 24a
C
In holding that the joinder of a diversitydestroying party is not separable from a § 1447(e)
remand order and is therefore unreviewable, we join
the Fourth Circuit. See Washington Suburban
Sanitary Comm’n, 917 F.2d at 836 n.4.
Two circuits, however, hold that an order
amending a complaint to add a diversity-destroying
party is separable from a remand order. Doleac ex rel.
Doleac v. Michalson, 264 F.3d 470, 489 (5th Cir.
2001); Powers v. Southland Corp., 4 F.3d 223, 228 (3d
Cir. 1993).6 Respectfully, they do not dissuade us
from our holding.
1
The Fifth Circuit’s opinion in Doleac is notably
equivocal; it forthrightly acknowledged that an
amendment to join a diversity-destroying party
“simply determined the forum in which the claims
would be decided and that both parties would be
subject to the same action. Therefore, it does not
appear analogous to issues found separable.” Doleac,
264 F.3d at 487–88 (citation omitted). However, the
court believed itself bound by a precedent holding
that an amendment joining an immune party was
separable from the subsequent remand, even though

In neither case did the appellate court actually review
the joinder, each holding that the joinder order was not
immediately appealable as either a final decision or a collateral
order. Doleac, 264 F.3d at 493; Powers, 4 F.3d at 237.
6

App. 25a
that precedent failed to consider the conclusiveness
element of the City of Waco test. Id. at 486, 489
(citing Tillman v. CSX Transp., Inc., 929 F.2d 1023
(5th Cir. 1991)).

Doleac is also distinguishable because it concerns
a joinder preceding a remand pursuant to § 1447(c),
while our case (and the Fourth Circuit’s) concerns a
remand under § 1447(e). As explained above, joinder
and remand under § 1447(e) is a single exercise.
Hence, even as it held that joinder preceding a §
1447(c) remand was separable, the Fifth Circuit
opined that joinder pursuant to § 1447(e) was very
likely not separable from the remand. Doleac, 264
F.3d at 488–89. The panel went so far as to suggest
that the circuit reconsider its holding en banc to bring
the rule for § 1447(c) in line with the rule for §
1447(e). Id. at 488, 489.
2
The Third Circuit’s holding in Powers hinged on
a factor not found here: the district court determined
that the amendment adding a diversity-destroying
defendant would relate back to the date that the
complaint was originally filed. As the court
explained, the joinder at issue in the case “consisted
of two separate steps or decisions.” Powers, 4 F.3d at
230 n.8. The first such decision was whether the
amendment would relate back, a decision that was
separable because it “clearly affected significant
substantive rights”—i.e., the joined defendant would
lose the benefit of the expiration of the statute of
limitations. Id. The second such decision was

App. 26a
whether joinder should be permitted. The court
conceded that without the relation-back decision,
joinder would have “no significant substantive effect
on the rights of the parties beyond determining the
forum.” Id.
We are not persuaded that either Doleac or
Powers constitute contrary authority. We are
satisfied that the joinder is not separable.
IV
Although the district court’s amendment of the
complaint is not separable from the remand,
severance of the partnership dissolution claim may
well be. But we need not decide whether § 1447(d)
bars our review of pre-remand decisions to sever
claims because Michael and Renate expressly waived
any objection on the merits to the district court’s
severance of the partnership dissolution claim.
V
Finally, Michael and Renate assert that this
court should construe their appeal as a petition for
writ of mandamus over which this court has
jurisdiction under 28 U.S.C. § 1651(a).
Congress undertook to exclude remand orders
from our review and anticipated that litigants might
adopt an unusual posture in order to raise their
grievance before the courts of appeals. For that
reason, § 1447(d) states that “[a]n order remanding a
case to the State court from which it was removed is

App. 27a
not reviewable on appeal or otherwise.” 28 U.S.C. §
1447(d) (emphasis added). Review through a writ of
mandamus is one such alternative specifically
prohibited by § 1447(d). Gravitt v. Sw. Bell Tel. Co.,
430 U.S. 723, 723–24 (1977); see also In re Blatter,
241 F. App’x 371, 373 (9th Cir. 2007). What § 1447(d)
prohibits on appeal, it also prohibits on petition for
mandamus. Mandamus is an “extraordinary remedy”
and it is neither warranted nor permissible here.
Special Invs., 360 F.3d at 993.
VI
Michael and Renate cannot overcome the
familiar bar to appellate review of remand orders in
cases removed from state court.
APPEAL DISMISSED.

App. 28a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
TIMOTHY P. DEMARTINI
and MARGIE
DEMARTINI,

Case No. 2:14-cv02722 JAM-CKD)

AMENDED PARTIAL
JUDGMENT UNDER
v.
FRCP 54(B) UPON
MICHAEL J. DEMARTINI, PLAINTIFFS’
RENATE DEMARTINI aka SECOND CLAIM
RENATE B. DEMARTINI, FOR BREACH OF
CONTRACT AND
and DOES 1 through 15,
DEFENDANTS’
inclusive,
CONTERCLAIMS
Defendants.
FOR DECLARATORY
MICHAEL DEMARTINI
RELIEF, BREACH
and RENATE DEMARTINI, OF PARTNERSHIP
AGREEMENT,
Counter
DEFAMATION AND
Claimants,
DEFAMATION PER
v.
SE
TIMOTHY B. DEMARTINI
and MARGIE DEMARTINI, (Filed May 4, 2018)
Plaintiffs,

Counter
Defendants.
Following a jury verdict on Plaintiffs’ claim for
breach of contract, Plaintiffs submitted a proposed
judgment order. ECF No. 341. The Court issued a
Partial Judgment Order on April 30, 2018, adopting
Plaintiffs’ proposed order. ECF No. 345. On May 2,
2018, Defendants objected to the proposed order on

App. 29a
several grounds. ECF No. 346. The Court finds
Defendants’ first objection meritorious, in part, and
accordingly amends the partial judgment order as set
forth below. Defendants’ second, third, and fourth
objections lack merit and are overruled.
I. JURY TRIAL ON PLAINTIFFS’ CAUSE OF
ACTION FOR BREACH OF CONTRACT
Plaintiffs Timothy and Margie DeMartini’s cause
of action for breach of contract came on regularly for
trial on April 16, 2018 in Courtroom 6 of the above
entitled court, with the Honorable John A. Mendez
presiding. The Plaintiffs, Timothy and Margie
DeMartini, appeared by and through attorneys Kirk
S. Rimmer and Christian F. Kemos and Defendants,
Michael and Renate DeMartini, proceeded pro se.
A jury of 8 persons was regularly impaneled and
sworn to the cause. Witnesses were sworn and
testified. After hearing the evidence and arguments
of counsel, the jury was duly instructed by the Court
and the cause was submitted to the jury with
directions to return a verdict.
The jury deliberated and thereafter returned into
the court with its verdict consisting of the issues
submitted to the jury and the answers given thereto
by the jury, which said verdict was in words and
figures as follows, to wit:
A COPY OF PLAINTIFFS’ SPECIAL
VERDICT IS ATTACHED HERETO
AS EXHIBIT A, INCORPORATED

App. 30a
HEREIN AND MADE A PART
HEREOF BY REFERENCE AS
THOUGH FULLY SET FORTH
HEREIN.
Plaintiffs, Timothy and Margie DeMartini, by
said verdict, are entitled to judgment against
Defendants, Michael and Renate DeMartini, in the
amount of $68,606.25 along with interest of ten (10)
percent per annum after breach as set by California
Civil Code § 3289(b).
II. SUMMARY JUDGMENT
On July 18, 2016, Defendants, Michael and
Renate DeMartini, brought counterclaims against
Timothy and Margie DeMartini for Declaratory
Relief, Breach of the Partnership Agreement,
Defamation and Defamation Per Se. Plaintiffs,
Timothy and Margie DeMartini, filed a motion for
summary judgment against Defendants’ Michael and
Renate DeMartini’s counterclaims. ECF No. 202. On
December 20, 2017, the Court granted Plaintiffs’
motion for summary judgment on Defendants’
counterclaims for Declaratory Relief, Breach of the
Partnership
Agreement,
Defamation
and
Defamation Per Se.
The record in this case establishes that Plaintiffs
filed their Second Amended Complaint on June 6,
2017. The matter was referred to the Honorable
Carolyn K. Delaney, pursuant to Local Rule 302(c).

App. 31a
At a May 31, 2017 hearing on the motion,
Plaintiffs were represented by counsel Kirk Rimmer
and Christian Kemos, and Defendants proceeded
prose. After their arguments, the court took the
matter under submission.
On June 14, 2017, the Hon. Carolyn K. Delaney
filed findings and recommendations which were
served on the parties and which contained notice to
the parties that any objections to the findings and
recommendations were to be filed within fourteen
days.
Per an extension of the deadline, Defendants
filed objections on August 29, 2017. See ECF No. 255.
Plaintiffs filed a response to those objections on
September 7, 2017. See ECF No. 263.
On December 20, 2017, the Court filed an Order
adopting in full the findings and recommendations
filed June 14, 2017 and granting Plaintiffs’ motion for
summary judgment. See ECF No. 267.
A COPY OF THE MAGISTRATE’S
JUNE 14, 2017 FINDINGS AND
RECOMMENDATIONS
IS
ATTACHED HERETO AS EXHIBIT B,
INCORPORATED HEREIN AND
MADE A PART HEREOF BY
REFERENCE AS THOUGH FULLY
SET FORTH HEREIN.

App. 32a
IT IS HEREBY ORDERED, the findings and
recommendations filed June 14, 2017 are adopted in
full with the following modifications:
Page 4, Footnote 1 is amended as follows:
12757, 12759 and 12761 Loma Rica
Drive are acknowledged to be co-owned
by the parties and are subject to
Plaintiffs’ cause of action for partition.
12731
Loma
Rica
Drive
is
acknowledged
to
be
held
in
partnership, and plaintiffs’ claim for
dissolution of this partnership has been
remanded to state court. ECF No. 224.
Page 7: line 10 – 12 is amended as follows:
Plaintiffs contend that any documents
indicating a partnership on their face
“relate to the DeMartini and Sons
Partnership at Loma Rica Drive,” and
refer to the dissolution of the
acknowledged partnership related to
12731 Loma Rica Drive, an issue which
has been removed to state court. ECF
No. 218, Plff’s Reply, at 8.
Page 8: line 22-24:
Assuming the report is admissible,
however, it shows little except the
parties’ joint management of 12757,
12759, and 12761 Loma Rica Drive.4

App. 33a
Page 8, Footnote 4:
Similarly, at the hearing, Michael
DeMartini cited his design of five units
of major buildings, worth “hundreds of
thousands of dollars,” and his
generation of “millions” in shared
income.
These
statements
also
concerned the Loma Rica buildings,
part of which are the subject of a
partnership remanded to state court.
Page 11, line 24 – 26:
While the parties were in an
acknowledged partnership concerning
the 12731 Loma Rica Drive property,
the scope, terms, and duration of any
further partnership seem to be drawn
from Michael’s own assumptions and
little else.
IT IS FURTHER ORDERED, that Judgment is
hereby entered in favor of Plaintiffs Timothy and
Margie DeMartini against Defendants Michael and
Renate DeMartini, jointly and severally upon
Defendants’ counterclaims for Declaratory Relief,
Breach of Contract, and Defamation.
III. FINAL JUDGMENT
The Court finds that final judgment on Plaintiffs’
breach of contract claim and all of Defendants’
counterclaims proper at this time. The issues

App. 34a
determined on summary judgment and by jury verdict
at trial are separable from the material issues in
Plaintiffs’ claim for partition, the only claim
remaining in the case. See Curtiss-Wright Corp. v.
Gen. Elec. Co., 446 U.S. 1, 717 (1980) (outlining
factors the district court may consider in deciding
whether to certify a judgment under Rule 54(b)).
Although the actions involve the same property,
the appellate court will not be called upon to
determine any legal or factual issues that would alter
resolution of the partition action. Future judgment on
the partition action would not moot the need for
appellate review of the claims already adjudicated.
The Court thus finds there is no just reason to delay
entry of partial judgment in this action.
NOW, THEREFORE, IT
ADJUDGED AND DECREED:

IS

ORDERED,

That Plaintiffs Timothy and Margie DeMartini
have judgment against Defendants Michael and
Renate DeMartini as follows:
1. Plaintiffs, Timothy and Margie DeMartini,
have and recover from Defendants, Michael and
Renate DeMartini, jointly and severally, damages in
the sum of $68,606.25 plus prejudgment interest of
$26,996.80, with interest thereon from the date of the
judgment until paid together with costs and
disbursements. Prejudgment interest from May 23,
2014 to April 27, 2018 is calculated based on a rate of
$18.80 per day.

App. 35a
2. Cross-Complainants, Michael and Renate
DeMartini, have and recover nothing by reason of
their counterclaims for Declaratory Relief, Breach of
Contract, and Defamation against Cross-Defendants,
Timothy and Margie DeMartini, and that CrossDefendants, Timothy and Margie DeMartini, shall
have and recover from Cross-Complainants, Michael
and Renate DeMartini, jointly and severally, costs and
disbursements.
Dated: May 4, 2018

/s/ John A. Mendez
John A. Mendez
United States District Judge

[Exhibits omitted.]

App. 36a
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
CALIFORNIA
TIMOTHY P.
DEMARTINI, et al.,
Plaintiffs,
v.

No. 2:14-cv-02722
JAM CKD PS
ORDER

MICHAEL J. DEMARTINI, (Filed May 1, 2017)
et al.,
Defendant.
Plaintiff filed the above-entitled action. The
matter was referred to a United States Magistrate
Judge pursuant to Local Rule 302(c).
On May 1, 2017, the magistrate judge filed
findings and recommendations herein which were
served on the parties and which contained notice to
the parties that any objections to the findings and
recommendations were to be filed within fourteen
days. None of the parties have filed objections to the
findings and recommendations; however, defendants
have filed a response.
The court has reviewed the file and finds the
findings and recommendations to be supported by the
record and by the magistrate judge’s analysis.
Accordingly, IT IS HEREBY ORDERED that:
1. The findings and recommendations filed May
1, 2017, are adopted in full;

App. 37a
2. The motion to amend the complaint (ECF No.
195) is granted;
3. The Clerk of Court is directed to separately
file and docket the proposed second amended
complaint (ECF No. 195-1 at pp. 8-16, Declaration of
Peter Kleinbrodt, Exh. B);
4. The third cause of action for dissolution of
partnership in the second amended complaint is
severed from the remaining claims; and
5. The severed claim for dissolution of
partnership is remanded to the Superior Court of the
State of California, in and for the County of Nevada
(case no. 80744).
DATED: May 4, 2018

/s/ John A. Mendez
HON. JOHN A. MENDEZ
United States District Judge

App. 38a
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
CALIFORNIA
TIMOTHY P.
DEMARTINI, et al.,
Plaintiffs,
v.
MICHAEL J.
DEMARTINI, et al.,

No. 2:14-cv-02722 JAM
CKD PS
FINDINGS AND
RECOMMENDATIONS
(Filed June 1, 2017)

Defendants.
Pending before the court is plaintiffs’ motion to
amend the complaint. This matter was submitted on
the briefs. E.D. Cal. L.R. 230(g); ECF No. 212. Upon
review of the documents in support and opposition,
and good cause appearing therefor, THE COURT
FINDS AS FOLLOWS:
Plaintiffs move to amend the complaint to add as
parties defendants Timothy DeMartini and James C.
DeMartini in their capacities as trustees for the
James Paul DeMartini testamentary trust. The first
amended complaint (filed October 15, 2015) alleged
three causes of action: (1) partition of real property
(for assessor’s parcel number 06-370-64, which is
alleged to be jointly owned by Michael DeMartini and
Renate DeMartini, as owners of an undivided one-half
interest, and Timothy DeMartini and Margie
DeMartini, as owners of an undivided one-half
interest); (2) breach of contract (for failure to pay half
of a loan amount); and (3) dissolution of partnership

App. 39a
and accounting (with respect to the alleged
partnership between Timothy and Michael
DeMartini). Plaintiffs now seek to amend the
complaint at this late stage of the litigation because
plaintiffs’ counsel recently obtained a litigation
guarantee1 allegedly showing that a partnership
asset, real property located at 12731 Loma Rica Drive
in Grass Valley (assessor’s parcel number 06-370-63000), has title vested in “De Martini and Sons, a
General Partnership, Composed of James P. De
Martini, Timothy P. De Martini and Michael J. De
Martini.” ECF No. 199-1 at p. 15. Plaintiffs allege (in
the proposed second amended complaint, ECF No.
195-1 at p. 12, ¶ 19) that upon the demise of James P.
De Martini, his partnership interest became an asset
of the testamentary trust.2 Plaintiffs have provided
only the first page of the litigation guarantee (ECF
No. 195-2 at p. 5, Exh. A); plaintiffs’ exhibit does not
include the legal description of the land referenced in
the guarantee. Defendants have provided what
appears to be a complete copy of the guarantee that
plaintiffs are relying on for their motion to amend.

Plaintiffs’ counsel contends the motion was brought at
this late juncture in the litigation because although the
guarantee was provided to counsel on November 30, 2016,
counsel had since then been conferring with the estate attorney
to try to determine whether the property had devolved to the
remaining partners. That question at present is apparently
unresolved.
2
Contrary to the allegations in the proposed second
amended complaint, in the first amended complaint, plaintiffs
alleged that plaintiff Timothy DeMartini and defendant Michael
DeMartini succeeded to the ownership of James DeMartini’s
partnership assets. ECF No. 75 at p. 4, ¶ 17.
1

App. 40a
See ECF No. 199-1 at pp. 14-21, Exh. 1. Defendants
have also submitted their own litigation guarantee,
which shows the property at issue being vested in “De
Martini and Sons, a general partnership.” ECF No.
199-1 at p. 26.
Plaintiffs’ proposed second amended complaint
will add as parties defendant Timothy DeMartini and
James C. DeMartini in their capacities as trustees for
the James Paul DeMartini testamentary trust. ECF
No. 195-2 at pp. 7-15. This action was originally
removed from state court on the basis of diversity.
ECF Nos. 1, 69. Joining Timothy DeMartini as a party
defendant will destroy diversity because a party
cannot be diverse to himself. See Emerald Investors
Trust v. Gaunt Parsippany Partners, 492 F.3d 192
(3rd Cir. 2007) (in suit against individuals trustee of
a trust, where trustees possess certain customary
powers to hold, manage and dispose of assets,
citizenship of trustee is controlling for diversity of
citizenship purposes.) Under Federal Rule of Civil
Procedure 19(a), joinder of the trustees is therefore
not feasible because joinder will deprive the court of
subject-matter jurisdiction. See generally Faunce B.
Bird, 210 F.R.D. 725 (D. Oregon 2002) (joinder of trust
co-beneficiary not feasible because it would destroy
diversity).
The court therefore turns to the question of
whether, in equity and good conscience, this action
should proceed among the existing parties. See Fed.
R. Civ. P. 19(b); see also EEOC v. Peabody Western
Coal Co., 610 F.3d 1070, 1083 (9th Cir. 2010) (factors
to be considered include “(1) the extent to which a

App. 41a
judgment rendered in the person’s absence might
prejudice that person or the existing parties; (2) the
extent to which any prejudice could be lessened or
avoided by shaping the judgment or the relief; (3)
whether a judgment rendered in the person’s absence
would be adequate; and (4) whether the plaintiff
would have an adequate remedy if the action were
dismissed”). On the record presently before the court,
it appears that the testamentary trust may have an
interest in a partnership asset. Although the
proposed second amended complaint does not
specifically ask for partition of partnership real
property assets, as a general rule, after dissolution of
a partnership and accounting, all partnership assets
must either be equitably divided among the partners
or sold, with the net proceeds distributed to the
partners. See Swarthout v. Gentry, 62 Cal. App. 2d
68, 83 (1943) (court, after taking accounting, should
require the partnership property to be sold);
Steinberg v. Goldstein, 145 Cal. App. 2d 692, 700
(1956) (in action seeking dissolution of partnership
and accounting, as general rule, partnership assets
liquidated prior to final judgment). Because the
testamentary trust may have an interest in a
partnership real property asset, disposition of this
asset cannot proceed fairly in the absence of the trust.
See Lomayaktewa v. Hathaway, 520 F.2d 1324, 1325
(9th Cir. 1975) (all co-owners of property should be
joined as parties). Because of this interest, the court
upon considering the Rule 19(b) factors, concludes
that the claim for dissolution cannot in equity and
good conscience proceed in this forum and the claim
would need to be dismissed under Federal Rule of
Civil Procedure 19(b).

App. 42a
However, this action was removed from state
court. Under 28 U.S.C. § 1447(e), if after removal
plaintiff seeks to join additional defendants whose
joinder would destroy subject matter jurisdiction, the
court may permit joinder and remand the action to
state court. This action has been pending in this court
since November 20, 2014. ECF No. 27. The case has
been vigorously litigated by both sides and a
significant amount of judicial resources have been
invested in this action. There is a pending motion for
summary judgment brought by plaintiffs against
defendants’ counterclaims and the final pretrial
conference is set for August 25, 2017 with trial on
October 23, 2017. ECF Nos. 146, 202. In light of the
court’s familiarity with the claims in this action and
the late stage of the litigation, the court finds
severance of the dissolution claim and remand of that
claim to state court is the means best suited to
accommodate the interests of all parties, and
proposed parties, to this litigation.3
Accordingly, IT IS HEREBY RECOMMENDED
that:
1.
The motion to amend the complaint (ECF
No. 195) be granted;
2.
The Clerk of Court be directed to separately
file and docket the proposed second amended

The court does not reach plaintiffs’ request for further
modification of the scheduling order to depose trustee James C.
DeMartini. Deposition of this deponent is relevant only to the
dissolution claim, which the undersigned will recommend be
remanded to state court. Whether this discovery should be
allowed will be left to the discretion of the Superior Court judge.
3

App. 43a
complaint (ECF No. 195-1 at pp.8-16, Declaration of
Peter Kleinbrodt, Exh. B);
3. The third cause of action for dissolution of
partnership in the second amended complaint be
severed from the remaining claims; and
4. The severed claim for dissolution of
partnership be remanded to the Superior Court of the
State of California, in and for the County of Nevada
(case no. 80744).
These findings and recommendations are
submitted to the United States District Judge
assigned to the case, pursuant to the provisions of 28
U.S.C. § 636(b)(l). Within fourteen days after being
served with these findings and recommendations, any
party may file written objections with the court and
serve a copy on all parties. Such a document should
be captioned “Objections to Magistrate Judge’s
Findings and Recommendations.” Failure to file
objections within the specified time may waive the
right to appeal the District Court’s order. Martinez v.
Ylst, 951 F.2d 1153 (9th Cir. 1991).
Dated: May 1, 2017

/s/ Carolyn K. Delaney
CAROLYN K. DELANEY
UNITED STATES
MAGISTRATE JUDGE

App. 44a
28 U.S.C. § 1447
(a) In any case removed from a State court, the
district court may issue all necessary orders and
process to bring before it all proper parties whether
served by process issued by the State court or
otherwise.
(b) It may require the removing party to file with its
clerk copies of all records and proceedings in such
State court or may cause the same to be brought
before it by writ of certiorari issued to such State
court.
(c) A motion to remand the case on the basis of any
defect other than lack of subject matter jurisdiction
must be made within 30 days after the filing of the
notice of removal under section 1446(a). If at any time
before final judgment it appears that the district court
lacks subject matter jurisdiction, the case shall be
remanded. An order remanding the case may require
payment of just costs and any actual expenses,
including attorney fees, incurred as a result of the
removal. A certified copy of the order of remand shall
be mailed by the clerk to the clerk of the State court.
The State court may thereupon proceed with such
case.
(d) An order remanding a case to the State court from
which it was removed is not reviewable on appeal or
otherwise, except that an order remanding a case to
the State court from which it was removed pursuant
to section 1442 or 1443 of this title shall be reviewable
by appeal or otherwise.

App. 45a
(e) If after removal the plaintiff seeks to join
additional defendants whose joinder would destroy
subject matter jurisdiction, the court may deny
joinder, or permit joinder and remand the action to
the State court.

